                                                             NATIONAL SCIENCE FOUNDATION
                                                              OFFICE OF INSPECTOR GENERAL
                                                                OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

11   Case Number: M97110044
                                                                                       11         Page 1 of 1



                    On 14 November 1997, the complainant1informed OIG about an allegation of misconduct in
           science. He alleged that the subject2 stole ideas (intellectual theft) from the complainant's
           unpublished critique. The complainant's critique discussed two papers in Journal 1, one of which
           listed the subject as the primary author (paper     The complainant explained that, after preparing
           his critique, he followed Journal 1's guidelines: sent a copy of the critique to the primary authors of
           the two papers for their responses, and subsequently submitted the critique and responses to Journal
           1. The critique was rejected by Journal 1. The complainant said that he later discovered a
           publication in Journal 2 (paper 2)4 on which the subject was the primary author and was the only
           author on paper 2 that was also an autho; on paper 1. The complainant alleged that paper 2
           contained ideas taken by the subject from the complainant's unpublished critique without proper
           citation. OIG reviewed the information provided by the complainant and other relevant publications.

                  OIG noted that subject's paper 1, published before he received a copy of the complainant's
           unpublished critique, contained a discussion related to the ideas that the complainant alleged were
           taken from his critique. Further, the complainant's unpublished critique contained six citations
           supporting his idea, two of which were authored by the subject. OIG concluded that the
           complainant's ideas, which he alleged were stolen from his critique, were not sufficiently unique to
           him to support the allegation. There is no substance to the allegation that the subject stole the
           complainant's ideas.

                     This case is closed and no further action will be taken.




                                is a faculty member in the




                                 Agent                        Attorney           Supervisor                AIGI

       Sign / date
